<html>
<title> - VISA WAIVER PROGRAM OVERSIGHT: RISKS AND BENEFITS OF THE PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    VISA WAIVER PROGRAM OVERSIGHT: 
                   RISKS AND BENEFITS OF THE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2011

                               __________

                           Serial No. 112-91

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-601 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel











                            C O N T E N T S

                              ----------                              

                            DECEMBER 7, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2

                               WITNESSES

The Honorable Mike Quigley, a Representative in Congress from the 
  State of Illinois
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7

David F. Heyman, Assistant Secretary for Policy, U.S. Department 
  of Homeland Security
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33

Richard M. Stana, Director of Homeland Security and Justice 
  Issues, U.S. Government Accountability Office
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43

James Jay Carafano, Director, Douglas and Sarah Allison Center 
  for Foreign Policy Studies, Deputy Director, The Kathryn and 
  Shelby Cullom Davis Institute for International Studies, The 
  Heritage Foundation
  Oral Testimony.................................................    61
  Prepared Statement.............................................    64

Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
  Oral Testimony.................................................    72
  Prepared Statement.............................................    74

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Mike Quigley, a 
  Representative in Congress from the State of Illinois..........    11

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from David F. Heyman, 
  Assistant Secretary for Policy, U.S. Department of Homeland 
  Security.......................................................    90

Lettter from Randel K. Johnson, Senior Vice President, Labor, 
  Immigration, & Employee Benefits, Chamber of Commerce of the 
  United States of America.......................................    93

Letter from Bill Vergot, President, the National Federation of 
  Croatian Americans Cultural Foundation.........................    95

Prepared Statement of Michael W. McCormick, Executive Direcor and 
  Chief Operating Officer, Global Business Travel Association 
  (GBTA).........................................................    97

Letter from Brent Thompson, Vice President, Global Government 
  Affairs, Expedia, Inc..........................................   101

 
                    VISA WAIVER PROGRAM OVERSIGHT: 
                   RISKS AND BENEFITS OF THE PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:10 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, King, Lofgren, and 
Waters.
    Also Present: Representative Chabot.
    Staff Present: (Majority) Andrea Loving, Counsel; Marian 
White, Clerk; and (Minority) David Shahoulian, Subcommittee 
Chief Counsel.
    Mr. Gallegly. I call to order the Subcommittee on 
Immigration and Policy Enforcement.
    While the Visa Waiver Program is a popular diplomatic tool, 
it is unfortunately a flawed program. Before it is expanded, 
the program should be reexamined to ensure that any national 
security concerns are addressed and resolved.
    Under the VWP, nationals of designated countries--and there 
are currently 36--are allowed to enter the United States 
without a travel visa.
    Since its creation, the VWP has been rightfully criticized 
on national security grounds. Those concerns have been 
validated over the years when individuals such as the suspected 
20th September 11th hijacker Zacarias Moussaoui came to the 
U.S. as a French national under VWP and when Richard Reid 
boarded the American Airlines Flight 63 en route from Paris, 
France, to Miami, Florida, with a British passport and 
attempted to light a bomb that was hidden in his shoe.
    Congress has acknowledged these security concerns several 
times and added security-related requirements to the program in 
the 2002 Visa Waiver Permanent Program Act, the USA PATRIOT 
Act, and most recently in the 2007 Implementing Recommendations 
of the 9/11 Commission Act.
    But even with the changes, the VWP is still the subject of 
significant security risks, both inherently and due to a lack 
of follow-up to ensure the countries become or remain compliant 
with the program's requirements. A May 2011 Government 
Accountability Office report found that only ``half of the 
countries have entered into agreements to share watchlist 
information about known or suspected terrorists and to provide 
access to biographical, biometric, and criminal history data.'' 
Such an agreement is a requirement of the program.
    And Congress required the Department of Homeland Security 
to issue biennial reports regarding the security risks 
associated with a country's VWP status, but the GAO found that 
the DHS had not completed the latest biennial reports for 18 of 
the 36 VWP countries in a timely manner.
    Unfortunately, this criticism is not new to the Visa Waiver 
Program. A 2004 DHS Inspector General report found that the 
agency was ``unable to comply with the mandate to conduct 
country reviews of each VWP-designated country every 2 years to 
determine whether the country shall be continued in the 
program.'' And a 2008 GAO report concluded that the ``DHS has 
not fully developed tools to assess and mitigate risks in the 
Visa Waiver Program.''
    So DHS consistently ignores congressional mandates 
regarding the VWP and cannot keep up with the demands for the 
36 countries that are currently in the program. These failures 
need to be addressed before we encourage the expansion of the 
Visa Waiver Program.
    This Subcommittee has a significant interest in protecting 
Americans and ensuring that the VWP is not a national security 
risk.
    The United States shares a close friendship with many of 
the Visa Waiver Program countries and with many countries that 
would like to be designated for the program. However, 
legislation and policies that can compromise our national 
security should be carefully scrutinized by Congress.
    Before I close, I know one of the witnesses, Rich Stana 
from GAO, is retiring, and this will be his last time 
testifying before Congress. I just wanted to take the 
opportunity to thank Mr. Stana for his years of service. He has 
been testifying in front of this Subcommittee on immigration-
related issues since 1997. We have greatly benefited from his 
expertise, and we all wish him well in his retirement.
    Thank you very much, Rich.
    Mr. Stana. Thank you very much, Mr. Chairman.
    Mr. Gallegly. There is a vote on. If you would like to make 
your opening statement, then we will go vote, or if you would 
prefer to----
    Ms. Lofgren. I am fine to make it now, and then----
    Mr. Gallegly. Okay.
    Ms. Lofgren [continuing]. We can go directly to our 
colleague when we return.
    Mr. Gallegly. I would yield to the gentlelady, the Ranking 
Member of the Subcommittee.
    Ms. Lofgren. Thank you, Mr. Chairman.
    First created by Congress in 1986, the Visa Waiver Program 
has actually played a vital role in growing our economy, 
creating and maintaining American jobs, and keeping the country 
safe. The program permits business travelers and tourists from 
certain countries to visit the United States for up to 90 days 
without first obtaining a visa at a U.S. Embassy overseas. The 
participating countries have to follow strict security measures 
and agree to share additional intelligence with our government. 
As such, the program facilitates and promotes travel for 
business and leisure to the United States while promoting 
national security.
    The Visa Waiver Program was first initiated with just two 
participating countries, the United Kingdom and Japan. Over the 
years, as has been mentioned, countries have been added and 
subtracted depending on several factors, including conditions 
in the country, and the rate at which its nationals are refused 
other nonimmigrant visas by consular officers.
    The Visa Waiver Program now has 36 participating countries. 
Current long-term participants include many of our closest 
allies, such as Australia, Germany, Ireland, Singapore, Sweden, 
Japan, and the U.K. Most recently, in 2008 President Bush 
expanded the program to include additional allies, such as the 
Czech Republic, Estonia, Hungary, and South Korea. Greece was 
added in 2009 under President Obama.
    The Visa Waiver Program is important to our economic 
growth. In 2010, over 65 percent of all foreign visitors to the 
U.S. came from visa-waiver countries, even though such 
countries make up a small percentage of the world's population. 
According to the U.S. Travel Association, those visitors spent 
nearly $61 billion, helping to support millions of American 
workers with travel, tourism, hotel, and restaurant industries.
    But what is more telling is how much this country may have 
lost because the Visa Waiver Program does not include more 
countries. While other countries have taken steps to welcome 
more visitors, waiting times for visits at U.S. embassies and 
consulates have grown to embarrassingly long levels. In some 
consulates, it now takes more than 6 months for visa 
applications to be processed, so the result has been decreasing 
market share in international travel. According to a study 
conducted by an American industry coalition, the U.S. is 
estimated to have lost $43 billion in visitor spending in 2005 
due to lost market share. And, according to the Department of 
Commerce, the positive balance of trade generated by inbound 
travel declined by more than 72 percent between 1996 and 2005.
    Since 2005, those losses have only grown, as international 
travel continues to increase but the U.S. share of the travel 
market continues to decrease. And as we lose market share, we 
also lose the ability to share American ideals with the rest of 
the world. Studies show that foreigners who visit the U.S. are 
75 percent more likely to have a favorable view of our country, 
and 61 percent are more likely to support the United States and 
its policies. So this country also suffers because fewer 
foreign visitors are able to experience and value our 
hospitality and our values.
    For these reasons alone, we should consider expansion of 
the Visa Waiver Program, but there is a more important reason, 
however counterintuitive it may be. Many of the supporters of 
the Visa Waiver Program, including conservative security 
advocates like former DHS Assistant Secretary Stewart Baker, 
support expansion of the program because they believe it makes 
the U.S. safer.
    This is because participating countries are required to 
share important law enforcement and national security 
intelligence and take other steps pursuant to agreements 
required by the program. Participating countries must exchange 
watchlists of known and suspected terrorists, issue more secure 
e-passports, report lost and stolen passports on a daily basis, 
and enhance overall counterterrorism and law enforcement 
cooperation with us. At the same time, visa-waiver travelers 
must also obtain preclearance to board a flight to the U.S. 
through the Electronic System for Travel Authorization.
    These measures provide U.S. Government personnel with new 
tools to secure the borders, help prevent terrorist and 
criminal activities, and promote a safer international travel 
environment for our citizens and those of our allies. 
Considering all of these benefits, as well as recent 
improvements made to the program by the Departments of State 
and Homeland Security, it may well be time to alter the program 
and extend its reach.
    I look forward to the hearing today and our witnesses, and 
especially Representative Mike Quigley, who has been such a 
leader in advocating especially for Poland, one of our most 
firm allies in the world.
    And so, with that, Mr. Chairman, I would yield back, 
looking forward to hearing from Mr. Quigley first and the rest 
of our witnesses.
    Mr. Gallegly. I thank the gentlelady.
    As you probably are all aware, the bells went off. We have 
about 7 or 8 minutes to get to the floor to vote. So we will 
vote as quickly as we can, return, and, Mike, we will be ready 
to go as soon as we get back.
    Mr. Quigley. Thank you.
    Mr. Gallegly. The Subcommittee stands in recess for 
probably 20 minutes.
    [Recess.]
    Mr. Gallegly. I apologize for the interruption, but that is 
the way the system works around here. Unfortunately, we don't 
have a lot of control over when the bells ring.
    I was about to introduce our witness, our colleague and 
friend from Illinois, Mike Quigley. Congressman Quigley 
represents Illinois's Fifth District in the United States House 
of Representatives. He is a Member of the House Committee on 
Judiciary and the House Committee on Oversight and Government 
Reform. Congressman Quigley is the former Cook County 
commissioner and has served his community for over 20 years.
    Welcome, Mike. And, with that, we will yield to you for 
your testimony.

 TESTIMONY OF THE HONORABLE MIKE QUIGLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Quigley. Thank you so much, Mr. Chairman and Ranking 
Member Lofgren. I appreciate that.
    And I also want to thank the Chairman of the full 
Committee, Lamar Smith, for helping us put this together, the 
Committee staff for their hard work, and certainly my staff, 
Lindsey Matese and others, who have worked so hard to get us to 
this point. And I look forward to hearing from the second panel 
here of experts today.
    But today's hearing really represents a watershed moment. 
Believe it or not, it has been 10 years since this Committee 
has had a hearing on the Visa Waiver Program, and in that time 
a lot has happened. And many in this room have long-founded 
beliefs about what this program, commonly known as VWP, can or 
cannot do.
    Let me ask something of my colleagues today, and that is: 
Let's set aside some preconceived notions of the program. As I 
have spoken to my colleagues over the past few years in my time 
here in Washington about VWP, I have repeated one line: This is 
not your father's VWP program. This is not your father's Visa 
Waiver Program. And, again, this is not an issue of 
immigration. These are travelers, not immigrants. This is an 
issue of national security, but it is not about comprehensive 
immigration reform.
    The Visa Waiver Program increases our access to data 
regarding who is coming and going. It allows us to map and 
trend country-based data and requires a commitment to safety 
and security from country designees.
    One of the most compelling reasons to promote the expansion 
of VWP to qualified countries is that the program has become a 
vital counterterrorism tool. Already, the program requires 
travelers to receive travel authorization through the ESTA 
program before boarding a U.S.-bound flight. Over the last 2 
years, DHS developed an enhanced biographic program and 
accelerated efforts to improve vetting and screening 
capabilities.
    DHS still must release overstay numbers in order for VWP 
expansion to happen, something they are working on. Combine 
this work with the reformed and expanded Visa Waiver Program 
and we will have effectively minimized opportunities for the 
expansion of terrorist networks. This is a goal I am sure we 
all share.
    My interest in this issue began, though, even before I took 
office. I represent a district that is nearly one-fifth Polish. 
Chicago has the highest concentration of Poles of any city 
outside of Warsaw. I hear from my Polish community daily about 
the unfair law that excludes their country from visa-free 
travel. Poland, whose country has fought side-by-side with 
Americans in Afghanistan, is among those countries left outside 
looking in.
    As President Obama acknowledged in Warsaw this year, 
Poland's exclusion from VWP is having a detrimental impact on 
our relationship with this key ally. Other vital nations, such 
as Brazil and Taiwan, are currently excluded from 
participation.
    So I took action. I introduced H.R. 959, the Secure Travel 
and Counterterrorism Partnership Program Act of 2011. The bill 
would allow the Secretary of Homeland Security to bring 
additional eligible countries into the VWP by modifying primary 
qualifying criteria for entry. Senators Kirk and Mikulski have 
introduced identical language. The Administration formally 
supports this language.
    This Nation needs to keep its doors open for visits from 
its allies. Foreign travelers who come to America gain an 
understanding of what makes America great, and they share these 
positive experiences with their neighbors. Expansion of the VWP 
would bring in tourism dollars and economically stimulate the 
travel industry. In 2008, the countries in the VWP generated 
more than 16 million visits to the United States, accounting 
for 65 percent of all overseas arrivals that year. VWP 
travelers spent more than $51 billion in the United States.
    International travelers spend three times more than 
national travelers when they come to this country. That 
spending generated 512,000 jobs, $13 billion in payroll, and 
$7.8 billion in taxes for our economy. If properly done, 
expansion of the VWP will improve our international 
relationships, create jobs, stimulate the economy, and, again, 
let me repeat, make us safer.
    There are 36 countries currently designated for visa-free 
travel under the program, all of which must sign information-
sharing agreements with the U.S. and qualify under certain 
enumerators regarding refusals at consular offices abroad. The 
U.S. Government maintains that there are significant security 
benefits from having countries enter into the required info-
sharing agreements and to report lost and stolen passports 
promptly, in addition to the economic and diplomatic benefits 
accrued from more travel to the U.S.
    As I conclude my remarks, I am hopeful that those with 
questions will ask them of our panelists and that they will 
listen to the answers. I wholly believe that today's outdated 
visa regime reflects neither the current strategic relationship 
nor the close, historic bonds between our peoples. I look 
forward to today's discussion and thank the Committee for its 
indulgence.
    [The prepared statement of Mr. Quigley follows:]
           Prepared Statement of the Honorable Mike Quigley, 
        a Representative in Congress from the State of Illinois

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Quigley. And, Mr. Chairman, at whatever points of 
procedures you deem appropriate, I will for the record ask that 
a letter of support from the President; testimony from Senator 
Kirk; testimony from Roger J. Dow, President and CEO of the 
U.S. Travel Association; testimony from the U.S.-Poland 
Business Council; letters of support from the Discover America 
Partnership, the Polish American Chamber of Commerce, the 
Embassy of the Republic of Croatia, and the Embassy of Romania, 
as well as the Kosciuszko Foundation, be submitted for the 
record.
    Mr. Gallegly. If that is a unanimous-consent request, I 
would----
    Mr. Quigley. It is.
    Mr. Gallegly. So it will be made a part of the record of 
the hearing, without objection.
    Mr. Quigley. Thank you, Mr. Chairman.
    [The material referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Mr. Gallegly. Mr. Quigley, do you agree that if a country 
does not meet the requirements to sign the agreements that the 
country should not be designated?
    Mr. Quigley. Yes. Countries need to meet the requirements. 
The bill in question does not lax the requirements. It believes 
that the Department of Homeland Security and even in the last 
few months has gotten even more prepared for having a 
protective system using visa waiver.
    Mr. Gallegly. Would you agree that additional resources 
would be necessary to support ICE? And if you do agree with 
that, would you support additional resources be available to 
devote specifically to identification information, our removal 
of foreign nationals who overstay their allotted time in the 
U.S.?
    Mr. Quigley. Well, I do, but I think the Chairman, with all 
due respect--and I would defer some of this to the Assistant 
Secretary--I believe that there will be some cost-shifting.
    I do believe two things: that there are lost opportunities, 
financially, by not having a Visa Waiver Program. That is money 
that doesn't come to our country in the form of tax dollars at 
the Federal, State, and local level.
    I also believe that by not having this program it ties up 
our consular offices in other regards for people having to go 
through a visa process. So, by reducing the burden in one area, 
reducing the burden on people putting visa processes together, 
it frees up those resources to deal with what is needed to have 
an appropriate Visa Waiver Program.
    Mr. Gallegly. I would yield to the gentlelady.
    Ms. Lofgren. Well, first, before asking anything, I would 
just like to offer my praise to you, Congressman, for the 
leadership that you have shown in this area.
    Mr. Quigley. Thank you.
    Ms. Lofgren. And, you know, when I think about the citizens 
of Poland and how they are fighting side-by-side with American 
soldiers in Afghanistan, and then to think that their fellow 
countrymen have been excluded from this program, you know, it 
really is an incentive to make sure that this works properly. 
And your efforts are obviously key and in the forefront on 
this.
    I just--you know, one of the things that I have often 
thought is that, you know, the refusal rate of consular offices 
has--there is almost no relationship to anything. And your bill 
actually tries to tag a metric that is actually meaningful.
    One of the things that we need to do is to be able to 
calculate that, and I wonder if you would like to share any 
thoughts on how that might progress.
    Mr. Quigley. Well, I agree that the overstay rate makes 
more sense. I think that the other process of trying to 
determine whether or not someone will overstay or a guess is 
very subjective, and it is a more appropriate tool to gauge 
with overstay rates, numbers that I believe we will be getting 
rather soon. And, again, I would defer to the Assistant 
Secretary to talk about how that process will work.
    But I do agree with your earlier statements, as well. This 
is very important from a diplomatic point of view. You don't 
have to just go to the point of Poland defending us and working 
with us, with boots on the ground in Afghanistan and other 
locations. You can go back a hundred years, in terms of the 
relationship between the United States and Poland. And, 
unfortunately, I believe we have let them down at several key 
junctures. And they are literally the front line, and have been 
for a long time, in protecting this country and Europe from 
various threats.
    So I believe the Assistant Secretary can go into more 
details, but I do think your point is well taken, that gauging 
overstay makes far more sense than someone's subjective 
determination guessing how someone will act when they are in 
this country. I do believe the improved--the historical 
analysis, biographical data, will be very, very important as it 
continues to improve, actually far better than biometric in 
making us safe and making sure that we know who is coming over 
and how long they are here.
    Ms. Lofgren. Well, I thank you. And I know that each one of 
us has multiple obligations all at the same time, so I won't 
burden you with additional questions. Just to thank you once 
again for being here and for your leadership on the subject.
    And I would yield back, Mr. Chairman.
    Mr. Quigley. Thank you.
    Mr. Gallegly. I thank the gentlelady.
    And I would certainly invite Mr. Quigley to sit at the dais 
for the rest of the hearing if he opts to.
    Mr. Quigley. Thank you.
    Mr. Gallegly. But since he is not a Member of the 
Committee, he can't participate in the questions and answers, 
as is the case with my good friend Mr. Chabot, who we certainly 
invite to share the dais with us.
    And thank you very much for being here, Mike.
    Mr. Quigley. Thank you so much for having me.
    Mr. Gallegly. Our second panel, if you would step forward.
    I would like to welcome our very distinguished panel of 
witnesses today.
    Each witness' written statement will be entered into the 
record in its entirety. I would ask each witness to please 
summarize his or her testimony in 5 minutes so that everyone 
will have a chance to have an opportunity to ask questions.
    And, with that, I would like to introduce our first 
witness, Mr. David Heyman. Mr. Heyman is Assistant Secretary 
for Policy at the U.S. Department of Homeland Security. In 
addition to his time at DHS, Mr. Heyman has served as a senior 
advisor to the U.S. Secretary of Energy and at the White House 
Office of Science and Technology Policy. Mr. Heyman received 
his B.A. From Brandeis University and his master's degree from 
Johns Hopkins University of Advanced International Studies.
    Our second witness today, Mr. Richard Stana, serves as 
director of homeland security and justice issues at the U.S. 
Government Accountability Office. During his nearly 35-year 
career with the GAO, he has served in headquarters, field, and 
overseas offices and has directed reviews on a wide variety of 
complex military and domestic issues. Most recently, he has 
directed GAO's work relating to immigration and border security 
issues. Mr. Stana earned a master's degree in business 
administration, with a concentration in financial management, 
from Kent State University.
    Our third witness, Dr. James Jay Carafano, is director of 
The Heritage Foundation's Center for Foreign Policy Studies as 
well as the deputy director of the Institute for International 
Studies. He joined Heritage as a senior research fellow. Dr. 
Carafano is a graduate of West Point. He holds a master's 
degree and doctorate from Georgetown University as well as a 
master's degree in strategy from the U.S. Army War College.
    Our fourth witness, Ms. Jessica Vaughan, is the policy 
director at the Center for Immigration Studies. She has been 
with the Center since 1991, where her area of expertise is 
administration and implementation of immigration policy. Prior 
to joining the Center, Ms. Vaughan was a foreign service 
officer with the U.S. State Department. She holds a master's 
degree from Georgetown University and a bachelor's degree from 
Washington College in Maryland.
    So, with that, we will start with you, Mr. Heyman. Welcome.

 TESTIMONY OF DAVID F. HEYMAN, ASSISTANT SECRETARY FOR POLICY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Mr. Chairman, Ranking Member, thank 
you, other distinguished Members, for the opportunity to appear 
before the Subcommittee today. I also want to thank you just 
for holding the hearing. This is an important program and an 
important hearing as such.
    I think most people take for granted that they can travel 
to a large part of the world without a visa, but visa-free 
travel to the United States is actually relatively new. In 
1986, Congress established a pilot project to facilitate low-
risk travel to the U.S. and help spur trade and tourism. That 
program's ability to accomplish these goals has been a success. 
In fiscal year 2010, nearly 18 million visitors from visa-
waiver countries constituted approximately two-thirds of all 
overseas travelers coming to the United States.
    This has great implications for our economy. According to 
the Department of Commerce, in 2010 spending by international 
travelers to the U.S. directly supported 827,000 jobs. 
Moreover, each additional 10 jobs created directly from tourism 
expenditures generated approximately 3 to 4 additional jobs 
indirectly in service sectors.
    Much has changed since the program's inception. Thanks in 
large part to congressional action, the Visa Waiver Program has 
also evolved over the past 25 years. It is now an essential 
tool for increasing security, advancing information sharing, 
strengthening international relationships, and promoting 
legitimate trade and travel to the United States.
    The Visa Waiver Program currently allows eligible nationals 
of 36 countries to travel to the U.S. without a visa and, if 
admitted, to remain in our country for a maximum of 90 days for 
tourist and business purposes. In the last decade, Congress and 
the executive branch have worked together to implement a number 
of enhancements to the program to address evolving threats to 
international travel. And now we see in places it is a 
requirement of partner countries and there are key enhancements 
in support of and to the benefit of U.S. law enforcement and 
security.
    Specifically, several unique security benefits accrue to 
the United States: the mandatory bilateral information-sharing 
agreements regarding potential terrorists and criminals; 
sharing of lost and stolen passport data; inspections of visa-
waiver countries' aviation border control and travel document 
standards; the Electronic System for Travel Authorization, or 
ESTA, requirement; and vigorous monitoring of changing 
conditions in visa-waiver countries. All of these security 
benefits would not accrue without the program.
    Two security concerns are often raised when discussing visa 
waiver. The first is the notion that Moussaoui and Richard Reid 
both came from visa-waiver countries, and the second is that 
the Visa Waiver Program lacks a consular interview. In both of 
these cases, I would note two important points. First, the 
other 19 hijackers had valid visas and interviews. And, second, 
more importantly, these events happened in 2001. We have put in 
place a post-9/11 travel architecture that didn't exist then: 
watchlisting, information sharing, predeparture screening, the 
ability to no-board. The Department of Homeland Security had 
not even been created.
    In my written testimony, I will elaborate further on the 
security and economic benefits of this program and provide a 
status of the Visa Waiver Program and its implementation.
    One element, additional element, I just want to touch on 
today has to do with overstays and enhanced exit. I am pleased 
to report that the Department has taken a number of steps to 
improve its capability to record exits.
    First, we are enhancing our existing biographic air exit 
system to better be able to match records and, thus, identify 
overstays with much greater fidelity. This will allow for 
better reporting of data on overstays for visa-waiver and non-
visa-waiver countries alike and improve our ability to 
prioritize those who constitute a threat to national security 
or public safety.
    Second, as is being announced today, perhaps even at this 
very moment, by President Obama and Canadian Prime Minister 
Harper as part of our U.S. and Canada shared vision of 
perimeter security, the Department of Homeland Security is 
working to facilitate the exchange of information on U.S. and 
Canadian entry records so that an entry in one country becomes 
an exit from the other. Thus, when you enter Canada from the 
United States, we will be able to register you as exiting from 
the United States when this is fully operational in 2014.
    Beyond these efforts, we remain committed to introducing 
the biometric component to the exit process when it is 
financially feasible and benefits are commensurate with the 
costs.
    Let me close by saying just a word or two about the 
legislation proposed by Congressman Quigley, Senators Mikulski 
and Kirk. As you may know, President Obama has expressed his 
strong support for this legislation. We regard this bill as an 
opportunity to expand the substantial security, political, and 
economic benefits of a program that has been developed and 
strengthened over the span of a quarter of a century.
    In conclusion, let me reiterate the valuable contribution 
this program brings to our economy and to national security, 
and I ask your support for this valuable program, not only for 
the benefits, the economic benefits, it provides the country, 
but also to the contributions it makes to our national security 
and our enduring international partnerships.
    Thank you. I am happy to take your questions.
    [The prepared statement of Mr. Heyman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Gallegly. Thank you, Mr. Heyman.
    Mr. Stana?

 TESTIMONY OF RICHARD M. STANA, DIRECTOR OF HOMELAND SECURITY 
   AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairman Gallegly and Ranking Member 
Lofgren, for the opportunity to testify at today's hearing on 
the related issues of visa waiver, US-VISIT, and visa 
overstays.
    Each year, millions of visitors come to the United States 
for various reasons like to either tour or for medical reasons 
or to visit family. From fiscal years 2005 to 2010, about 98 
million visitors came through the Visa Waiver Program for stays 
of about 90 days or less. Another 36 million came during that 
6-year period for varying durations and for various reasons.
    I would like to spend my time in my oral statement to 
discuss--really put some perspective and context around some of 
the issues and numbers that we have heard about making changes 
to the Visa Waiver Program and things that maybe Congress could 
consider in that regard.
    First, let me begin with a few observations on the Visa 
Waiver Program itself. Since the program was made permanent in 
2000, we have issued six reports that, when taken together, 
show progress that the Department has made in managing the 
program, but also show some persistent problems that haven't 
gone away yet.
    On the positive side, the major information gaps that we 
found early on, regarding the reporting of lost and stolen 
passports, has pretty much been addressed. And to the 
Department's credit and to INTERPOL's credit, 35 of the 36 
visa-waiver countries now routinely report, and, although the 
information isn't always timely and perfect, it is there. 
Another positive is that the Department has put more staff on 
the case to manage the program. And DHS has smoothly 
implemented ESTA, and now they have about a 99 percent 
compliance rate from the airlines.
    On the other hand, while over half the countries in the 
program have signed the required agreements to share 
biographical, biometric, and watchlist information, only 
several have actually begun implementing those agreements. And 
DHS is more than a year overdue on the required biennial 
security risk assessments for half of the visa-waiver 
countries, in some cases 2 years or more.
    Finally, another challenge is with the ESTA program. The 
compliance rate of 99 percent indicates some success, but that 
leaves hundreds of thousands of travelers who are not cleared 
before boarding airlines to the United States. In 2010, there 
were 360,000 such passengers. And, upon reflection, it appears 
that about at least 650 should have not been permitted to 
board. DHS has begun to analyze a small portion of these cases 
to see if they are of legitimate concern or if there is a 
systemic weakness to the program.
    Now, related to the integrity of the Visa Waiver Program is 
our ability to determine traveler compliance with the terms of 
their visas. And this gets us into US-VISIT. Since 2002, DHS 
obligated about $193 million to develop air, sea, and land exit 
solutions, but, again, there is good news and there is some 
not-so-good news.
    The good news is, on the entry side, it is pretty well up 
and running at the 300 land, air, and sea ports of entry, and 
it appears to generally be working well, in that biometric 
information is collected and used by our officers at ports of 
entry and by consular officials overseas.
    The not-so-good news is that the exit records are not 
there. We do not have a biometric exit capability at airports, 
seaports, and land ports. We have biographic information from 
airline departure manifests that could help identify overstays, 
and ICE uses it for that purpose. But, again, DHS does not, 
itself, use that information for mandatory and statutory 
reports on overstay rates. So doing a country-by-country 
assessment would be even more difficult.
    Finally, let's talk about overstays. The Pew Hispanic 
research center in 2006 estimated that about one-third to one-
half of the illegal alien population in the United States 
entered with a valid visa and overstayed. That is a very large 
figure. To its credit, ICE uses a risk-management process to 
focus its attention on the greatest security risk of those it 
identifies. But, again, you are talking about ICE arresting 
only about 1,200 visa overstays per year, against 4.5 million 
to 5 million overstays in the United States. Clearly, DHS and 
ICE need to do more to get on top of that issue.
    In closing, we recognize that the Visa Waiver Program can 
help to find the appropriate balance between facilitating 
legitimate travel and attending to security concerns. Much 
progress has been made to shore up the vulnerabilities that we 
identified, and we are in a much better position today than we 
were when the program started to address these concerns.
    Now, that said, we also recognize that the program has lots 
of information gaps and management challenges and that adding 
more countries before addressing these gaps and challenges 
could further strain ICE's and DHS's ability to effectively 
manage this program. We have made a number of recommendations 
to DHS and State to help ensure that visa-waiver countries meet 
the stringent criteria that Congress established for meeting 
the program's security requirements.
    This concludes my oral statement, and I would be happy to 
answer any questions that the Subcommittee Members may have.
    [The prepared statement of Mr. Stana follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Stana.
    Dr. Carafano?

 TESTIMONY OF JAMES JAY CARAFANO, DIRECTOR, DOUGLAS AND SARAH 
ALLISON CENTER FOR FOREIGN POLICY STUDIES, DEPUTY DIRECTOR, THE 
  KATHRYN AND SHELBY CULLOM DAVIS INSTITUTE FOR INTERNATIONAL 
                STUDIES, THE HERITAGE FOUNDATION

    Mr. Carafano. Thank you, sir. And I would like to thank the 
Committee for holding this important hearing.
    I believe that this is the single most important visa issue 
that the Congress and the President can address, just because 
the majority of visitors who come lawfully through this country 
use this visa program, so it is our single most important visa 
program, but also because this is the wave of the future. If 
you go out there, you look at the trends in international 
travel and when you look at countries who are doing innovative 
work like Australia, this is the trend of where we are going. 
So this is the future. And getting this program right, well, I 
don't think, in terms of international travel, anything is more 
important.
    The Heritage Foundation, I am very proud to say, has 
dedicated substantial resources to looking at homeland security 
issues. I believe that we have the largest--and I am proud of 
the work that we have done. And in every issue that we have 
looked at, we have held the same standard, which was we insist 
on programs and answers and solutions that keep the Nation 
safe, free, and prosperous, and we won't compromise on any 
three of those objectives. And there are few issues that we 
have dedicated more resource and time to than looking at the 
Visa Waiver Program.
    So, in my testimony, I wanted to highlight what I thought 
really are the key issues to be addressed. The first one is the 
linkage between biometric exit and authority for visa-waiver 
caps. The second is the issue of using refusal rates versus 
overstay rates for authority to enter into an agreement to the 
program and to remain in the program as a country. And the 
third is the future of the Visa Waiver Program. And I would 
like to address each of those very, very quickly.
    On the first, whatever--you know, I am not going to--I 
mean, it doesn't make any sense to really look at whatever the 
rationale was and why people thought biometric exit was a 
really great idea or why linking that to the Visa Waiver 
Program was a really good idea. And, you know, I can make 
arguments either way. Those arguments were made several years 
ago, and I think we have to evaluate where the program is and 
where its future is going based on the reality today.
    So, by our count, there have been at least 43 known 
terrorist attacks aimed at the United States since 9/11 that 
have been thwarted--43. Increasingly, most of those have been 
homegrown. Increasingly, I believe you have to give a lot of 
the credit for that for the fact that the United States and 
countries that have adopted similar initiatives to the United 
States, like Australia, are becoming harder targets for 
transnational terrorists. So, from a criminal perspective or 
from a terrorist perspective, what we are doing must be 
working.
    And I think you have to look at not just an individual 
program like Visa Waiver but the complement of all the tools 
that we are using to thwart criminal and terrorist travel, when 
you really evaluate that and to figure out what additional 
value, either from an immigration perspective or criminal law 
enforcement perspective or counterterrorism perspective, that 
biometric brings to the table. And I think it is very, very 
difficult to argue, that you would really only gain very, very 
marginal benefits at all, at extremely significant additional 
cost. So I really don't see where the cost-benefit analysis of 
linking those two programs together, at this point in time, 
really makes sense anymore.
    On refusal versus overstay rates, I think the issues on 
refusal rates as a valid predictor and as a measure of overstay 
propensity are legion. We have had them for years. Clearly, the 
standard by which we run the program, overstay would be a much, 
much more effective metric. We should move toward that metric. 
And it is important to get that metric right because it is 
valuable for determining whether countries should not just 
enter the program but whether they should remain in the program 
and also to identify what are the best practices, what are the 
lessons learned, what are the ways to adapt and improve the 
program over time. So I think moving toward the overstay rate 
is not only the right metric, it is the metric that we need to 
really evaluate and keep this program healthy for decades to 
come.
    On the third issue of whether the Visa Waiver Program--it 
is estimated in about 10 years the value of international 
travel is going to double, to about $2 trillion. The U.S. 
percentage of that is shrinking, and it is going to shrink in 
the future if we don't improve access to this country. And that 
is not just an economic issue, although right now I think it 
supports millions of--2 million plus jobs on international 
travel, but it is going to affect us in terms of public 
diplomacy, in terms of intellectual capital, and a whole other 
realm. We have to get back into the business of bringing people 
safely into this country.
    We really have two alternative strategies: expanding and 
improving visa-waiver or expanding visa-access programs, or 
lowering the standards for visa-access programs. Expanding the 
speed of the way we issue visas would require significant 
capital investments or lowering standards, which would increase 
risks. I think the alternative of enhancing the Visa Waiver 
Program and using that as an instrument to bridge to the future 
is a much, much more cost-effective way of getting back our 
legitimate share of international travel.
    And, conversely, of course, as you add countries to the 
program, you free up resources, not just in the State 
Department but in DHS, for strengthening the Visa Waiver 
Program and focusing visa resources on countries that are truly 
countries of concern.
    And so what would my recommendation be? It would be that, 
look, this Administration needs to learn how to walk and chew 
gum; they need to learn how to expand this program and how to 
address and strengthen the management of the program at the 
same time.
    The new countries that are coming into the program, they 
are not the problem. They are the most compliant, they most 
want to be there, they are the least security risk. And when 
you bring these countries into the program, that actually, I 
think, strengthens your position to go to existing countries in 
the program and present them with the challenge of meeting the 
standards that other countries have demonstrated that they can 
meet. You learn new lessons. I mean, you know, we have already 
seen this with United States and Australia, where as we make 
initiatives, they are learning--as we are making initiatives, 
they are learning from us. So I think bringing countries into 
the program actually is going to allow us to pull other 
countries which are not quite up to standard yet into the 
future.
    Thank you very much.
    [The prepared statement of Mr. Carafano follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gallegly. Ms. Vaughan?

 TESTIMONY OF JESSICA M. VAUGHAN, DIRECTOR OF POLICY STUDIES, 
                 CENTER FOR IMMIGRATION STUDIES

    Ms. Vaughan. Thank you for the opportunity to be here.
    In my view, these proposals to modify the Visa Waiver 
Program, with the result that would expand participation in it, 
are very premature. We have heard about some of the benefits of 
the program, which are real, for foreign visitors, obviously, 
and also the travel industry and the State Department. And we 
are all aware of the risks and problems that are associated 
with any relaxation of entry requirements and screening--not 
just security risks, which other experts here have emphasized 
today, but also the problems associated with illegal 
immigration.
    The risk I see is that if the Visa Waiver Program is 
modified or expanded before better security measures, better 
visitor tracking, and better interior immigration law 
enforcement is in place, Americans are going to be more 
vulnerable to attack and more exposed to transnational crime 
and the country is going to experience even more illegal 
immigration, all of which comes at enormous fiscal and social 
cost to the Nation.
    And I would also argue that, yes, the program has worked 
well in expanding travel here, but part of the reason for that 
is because we have been relatively strict about which countries 
are admitted.
    We have heard from Mr. Heyman about the potential for very 
important security enhancements that we hope will eventually be 
implemented, but, at this time, most of those enhancements are 
really very much aspirational. We really need to give DHS a 
chance to catch up and develop tools to evaluate the results 
since the last major expansion of the program, which occurred 
right in the middle of some enormous economic and political 
upheaval.
    And, of course, we can still pursue security enhancements, 
like information sharing, even outside of the framework of the 
Visa Waiver Program. There is no reason we can't seek those 
agreements, regardless, with these other countries.
    Mr. Stana has covered most of the issues related to the 
Department of Homeland Security's slow progress in meeting 
congressional expectations, so I am going to focus my remarks 
mainly on the issue of overstay metrics.
    But before I do, I just want to make one quick comment 
about ESTA. I agree that ESTA can help determine--can help with 
screening people for terrorism ties or criminal ties. But one 
thing that ESTA cannot do is help overcome a country's basic 
issues with eligibility and compliance. Just because someone is 
not a known terrorist or a criminal, which is what mainly ESTA 
can determine, does not mean that they qualify for entry.
    So what kind of overstay metrics do we need? Well, we have 
known for some time that visa overstayers represent about 4 
million to 6 million people within the illegal alien 
population. A few have become terrorists; some commit crimes. 
But, in general, they are costly to the taxpayers, based on 
reputable studies, that is about between $3 billion and $5 
billion every year.
    We also know that we need better data, but I question 
whether the biographic matching system that DHS has proposed, 
based on ADIS, will be able to deliver what Congress mandated 
and what Federal agencies need to maintain the integrity of the 
system. Since ADIS is maintained by the airlines, not the 
government, there could be data integrity problems. It is not 
biometric, so it can't actually authenticate the identity of 
travelers. It is more susceptible to fraud. The users of the 
system tell me that, as it is operating now, because it is 
biographic, it can have difficulty producing matches. And it is 
so inexact that sometimes people using it either get hundreds 
of matches, which is not helpful, or none at all because the 
system can't match records where people change their names.
    I would agree with Mr. Carafano that once we have credible 
data, the overstay rates are superior to refusal rates for 
determining likely compliance from visitors. But I would 
caution that they should not be considered in isolation from 
refusal rates or other key metrics like adjustment-of-status 
requests and so on.
    And it is certainly premature to speculate about what an 
acceptable overstay rate might be because we have no reliable 
information about what is happening now. A low overstay rate 
might be an indication of a high refusal rate that is right-on, 
or it could be an indication for countries, for example, from 
the Western Hemisphere, where a lot of the people who are 
coming here illegally are actually entering over the land 
border, not with visas. So mere reliance on the overstay rate 
is going to be misleading with some of those countries.
    Obviously, we have to accept some risk in our admissions, 
and we know that there are going to be mistakes. Therefore, we 
also have to make sure that we have a satisfactory level of 
interior immigration law enforcement. And, right now, we don't 
have that.
    There are 2 million, roughly, criminal aliens living here, 
according to ICE. There are about 7 million illegal aliens 
working here in jobs that we need for Americans and legal 
immigrants. We have sanctuary cities and States that refuse to 
cooperate with Federal efforts and attract illegal immigration. 
We don't have mandatory status verification at the workplace. 
And the current Administration is broadcasting that it is 
targeting only those illegal aliens who are convicted of 
serious offenses for enforcement.
    So expanding the Visa Waiver Program too fast or 
irresponsibly is going to make it that much harder for ICE, and 
the price will be paid by those Americans who are victims of 
crimes committed by people who shouldn't be here or who lose 
job opportunities.
    Thank you.
    [The prepared statement of Ms. Vaughan follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Ms. Vaughan.
    Mr. Heyman, DHS has told the Committee staff that DHS has 
identified 757,000 in-country overstay leads. How many agents 
does DHS currently have that are specifically assigned to make 
sure that those 757,000 illegal immigrants are located and 
deported? How many specifically do you have assigned to take on 
the task of 757,000? Is it less than 10,000?
    Mr. Heyman. So let me give you context of that number. This 
summer, we decided, as part of our review of the Visa Waiver 
Program and looking at overstays, to make an effort to--there 
was a 1.6 million backlog dating back to 2004. We ran it 
through a number of databases, which we had not done before 
previously. And just in the checks against the databases, we 
were able to get--all but 757,000 were cleared, as in people 
who had left the country or changed status or otherwise. The 
757,000 possible overstays were then vetted by CBP and the 
National Counterterrorism Center for national security and 
other rules, and we were able to get that number down even 
further.
    Let me tell you the--jump ahead to the short story. The 
investigative leads that came out of that numbered only in the 
couple of dozens after we ran through the number of data checks 
and evaluations. And, of those, we--ICE was given those leads, 
a number of them were duplicate records, a number of them were 
people who were in status, some were departed. The answer is, 
it came up with only two investigations that were required by 
the field, and they both turned out not to be of concern.
    Mr. Gallegly. Mr. Heyman, I understand all the wonderful 
work they are doing. I am just trying to determine whether we 
have enough wonderful people to do all the work that needs to 
be done.
    Of the 757,000--I will ask the question one more time--how 
many people are specifically tasked to--I would like--
obviously, you have to have an exact number or within two or 
three.
    Mr. Heyman. Yeah, there are sufficient resources for the 
internal enforcement, which is now based upon prosecutorial 
discretion. And, as I said, the 757,000--we are not required to 
do field investigations.
    Mr. Gallegly. Okay. Can you tell me how many people 
specifically are assigned just for the purpose of field 
investigation?
    Mr. Heyman. It is in the thousands. I will get you the 
exact number.
    Mr. Gallegly. I am sorry?
    Mr. Heyman. It is in the thousands. I will get you the 
exact number.
    Mr. Gallegly. Okay. I would appreciate that, and we will 
make it a part of the record of the hearing.
    [The information referred to follows:]
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Of the 757,000, or whatever that magic number 
is, in the last 12 months how many have been deported?
    Mr. Heyman. As I said, those are not all overstays. The 
number actually gets down to about two investigations. One was 
somebody who was a changed status, so they were legitimately 
present, and one who had already left the country.
    Mr. Gallegly. Of all of those that--and we do know that 
there are a lot of individuals in this country that are clearly 
visa overstays. In fact, when we talk about all the illegal 
alien problems that we have in this country, it is not just the 
folks crossing the southern border. And I think most would 
agree that that number is somewhere around 40 percent of the 
people that are illegally in this country are visa overstays. 
Is that not correct?
    Mr. Heyman. I think that is correct.
    Mr. Gallegly. Okay. Now, if you could please tell me, of 
the 11 million, 20 million, or whatever that would be overstays 
in this country, how many were formally--how many were removed 
from the country last year, a number?
    Mr. Heyman. I don't have that number for you.
    Mr. Gallegly. Would you say it is less than 500,000?
    Mr. Heyman. Yes.
    Mr. Gallegly. Less than 100,000?
    Mr. Heyman. I don't have that number for you. I can get it 
for you.
    Mr. Gallegly. Probably less than 10,000?
    Mr. Heyman. Well, what we have done is we are looking at 
the national security and public safety risk. And we have made 
every attempt to investigate those of concern----
    Mr. Gallegly. Sir, with all due respect, public safety is 
our primary responsibility, but the law also calls for this. If 
you don't have enough folks, say, ``We need more help,'' and I 
would like to know what that number is.
    So, obviously, you don't know what the number is, you don't 
know how many people you have working out there, you don't know 
how many people have been removed. I would think that number 
would be fairly simple to come up with.
    Dr. Carafano, you have stated that you believe that the 
biometric program needs to be reassessed; is that correct?
    Mr. Carafano. Yes, sir.
    Mr. Gallegly. Could you tell me, when an immigrant that has 
a visa leaves this country, what better method do you have of 
identifying whether they actually left than through a biometric 
program?
    Mr. Carafano. Well, the question is, what is the additional 
value of that biometric qualification versus a biographic 
qualification.
    Mr. Gallegly. Well, identification, I would think, would be 
one----
    Mr. Carafano. So, obviously, you could spend a billion 
dollars and have a home that is perfectly secure, and then you 
could ask, okay, well, if I just got a burglar alarm and locked 
my doors, which maybe I would spend $100 for, is that 
reasonable security? And I think the answer is, we have to make 
a decision about what is reasonable versus what is----
    Mr. Gallegly. So, in other words, you would, kind of, maybe 
prefer the honor system?
    Mr. Carafano. No, sir, I think I have very carefully stated 
not. I think biographic data is perfectly adequate for what the 
system is intended for, which is to show you trends and 
compliance with the law. If you are interested in tracking 
specific individuals because they are a terrorist concern or a 
criminal concern or because there is some kind of immigration 
concern, there is plenty of data in the current system to find 
and track those individuals.
    So if you are asking me if it is worth it to spend all that 
additional money to gain very little additional capability, I 
would tell you ``no.'' It would be like somebody who wanted to 
take a trip, you know, downtown, and instead of going in a 
Piper Cub, they said, ``No, I want an F-35.''
    Mr. Gallegly. Well, I am not sure I understand that 
specific analogy, and reasonable minds can differ.
    I would yield to the gentlelady, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    As I listened here to the witness from The Heritage 
Foundation, it is pretty clear that having an expanded Visa 
Waiver Program--you are the conservative think tank. I mean, 
this is not some flighty liberal proposal. And I think it is 
important to be very hardheaded about what is being discussed 
here.
    Mr. Gallegly. But--would the gentlelady just yield for a 
moment? Just for the record----
    Ms. Lofgren. I would yield.
    Mr. Gallegly. Just for the record, Mr. Carafano is the 
Democrats' witness today.
    Ms. Lofgren. That is right. And it is a sad day when the 
Democrats have to invite the conservative Heritage Foundation. 
But I was happy to do it to make this point, and I think it is 
an important one. This is a mainstream proposal, and it is 
accountable.
    You know, I think it is important to be practical and to 
weigh apples to apples. We are talking about 757,000 potential 
overstays. Some of those are duplicates, so it is not that 
high. But those include--that is not visa-waiver people; that 
is everybody. It is people who came in with visas, people who 
came in with visa waivers. So to say that somehow that is an 
argument against the Visa Waiver Program is completely 
illogical.
    And it is important to note that if you are in the Visa 
Waiver Program, it doesn't mean that you have a right to enter 
if we think there is a problem with you. That is why the 
background is done and the enhanced background is done, and you 
are turned away if there is a reason why you should not be 
admitted to the United States.
    So I would like to actually ask you, Mr. Heyman--and I 
thank you for being here--what is the enhanced information that 
we get on this Visa Waiver Program?
    And confirm this information, if you will. It is my 
understanding that all the newcomers into the Visa Waiver 
Program have complied with all of the requirements. The only 
issue in terms of lagging on compliance is the countries that 
were in from before the new ones were added. Is that correct?
    And then please describe why this makes us safer. I mean, 
what else do we get for nations that join in to this program?
    Mr. Heyman. Thank you for the question.
    It is true that the implementation of the Visa Waiver 
Program has been much more than aspirational. There are about 
five or six requirements that are fully implemented. Secure 
travel documents are now fully implemented, including e-
passports; that is fully implemented, that requirement. The 
lost and stolen passports, as we heard from the GAO, has been 
fully implemented, 35 out of 36 of the countries. The ESTA 
program is now fully implemented, 99.5 percent compliant. And 
we have continuous and vigorous monitoring across all the 
countries as it pertains to aviation security and border 
security.
    So, absolutely right, these are actually in--programs that 
have been implemented. Some of the information-sharing 
agreements need to get concluded. We are on track for getting 
those concluded next year. And then it requires those partner 
countries to have their technology updated, to have their 
legislation passed, so that they can actually implement it 
fully.
    Ms. Lofgren. Just a comment before I do a follow-up. I was 
interested in Ms. Vaughan's testimony. And we get classified 
briefings from time to time, and obviously we can't go into 
what we are told in the classified briefings, but I think we 
are allowed to say what we are not told. And we get reports on 
who is coming across the land border by ethnicity and by 
country. And I have never been told that anybody from Brazil 
has been apprehended. So that is not a violation of our oath; 
it is what we were never told in a classified setting. And I 
just thought it was important to make that point.
    Getting to the cost-benefit analysis, I mean, unless we 
want to have no one enter the United States, which would be a 
catastrophe for our country, how do we best spend our funds to 
make sure that we have the most vigorous system to protect our 
security?
    Mr. Heyman, you and also Mr. Carafano suggested that the 
biographic system is worthy of expansion. And I am wondering if 
some of the money that has been programmed for the biometric 
system that really hasn't been implemented because--you know, I 
know the pilot program really didn't work except when it was 
at, you know, the door of the airplane--whether that would be a 
source that could be used to really upgrade this biographic 
system well.
    I mean, Mr. Carafano and Mr. Heyman, maybe you could both 
comment on that.
    Mr. Heyman. Sure.
    Look, the enhanced biographic exit program that we are in 
the process of implementing provides greater fidelity of the 
data for overstays. That will be helpful for the Visa Waiver 
Program. As everyone, I think, on this panel has acknowledged, 
that is a better metric, a useful metric for visa-waiver 
designation. It will also help us in terms of the ability to do 
better targeting for enforcement actions and the like.
    The process of implementing that is on the order of--for 
automating that--we can do it manually now with great fidelity, 
but it takes a lot of resources, somewhere between $15 million 
and $20-some-odd million. It would be useful to take the 
biometric resources to help us on that right now, particularly 
given that biometric estimates, at the minimum, are somewhere 
at $3 billion to have an effective biometric program.
    Ms. Lofgren. Right.
    Before my time is up, Mr. Carafano, do you want to briefly 
comment on that?
    Mr. Carafano. Well, I have been in this business a long 
time. You know, if this was a mandate that could have been 
easily fulfilled, it would have been fulfilled back in the 
1990's when it was first implemented. I don't think we are 
arguing between biographic versus biometric because I doubt 
this government is ever going to be able to afford or implement 
biometric. So I really think we are kind of having a false 
debate here.
    Ms. Lofgren. Thank you very much.
    Before I yield back, I would just like to echo your 
comments, Mr. Chairman, about Mr. Stana and his long service to 
our country.
    And I guess this is your last hearing. It is great to see 
you, and we appreciate you.
    Thank you, Mr. Chairman.
    Mr. Stana. Thank you, Ms. Lofgren.
    Mr. Gallegly. The gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I do thank the witnesses. And I especially thank Mr. Stana 
for a lot of years of service. And I am sure that I have 
contributed to the difficult times of your service here. I 
appreciate the product that came from that hard work.
    And, first, I would just turn to Mr. Heyman. I am trying to 
understand here what our optimum policy is and what we would 
like to do. You know, we should all start with, if we could 
draw this out so it is the best it could possibly be and then 
work on how we get to that goal. And so I am looking at a Visa 
Waiver Program, a US-VISIT program, a prosecutorial discretion 
policy that may be a program for administrative amnesty, the 
way I see it. I have not seen the will within an Administration 
to enforce immigration law since I have been close enough to 
actually look. And so I lack a lot of confidence in what we 
might do to grant more license for more open borders because I 
don't quite see yet--I don't see the philosophy, I don't see 
the mission within the Administration, this one or the previous 
three.
    And so I would just take you to this. If you could have 
this thing operating, functioning the way you would like to 
have it function, without regard to the cost or the ability to 
put the resources together--and Christmas is coming--what would 
your ask be?
    Mr. Heyman. Well, the best ask for the quickest turnaround 
for the most fidelity both for enforcement but also for visa-
waiver expansion would be to get the enhanced biographic exit 
system up and automated as soon as possible. It is a few 
million dollars. It would be worth doing.
    The ability to track and monitor overstays--and I should 
just add for the record that, in our pilots looking at the data 
to make sure we could have better fidelity of overstays, it is 
quite clear that the visa-waiver countries are substantially 
lower in terms of overstays than other countries. And I think 
it is something that will bear out as we are able to get that 
data up and useful.
    Mr. King. We still, though, have this situation, if we had 
US-VISIT working in and out, and they were biometric, then we 
would have finally that list of those people that are here in 
the United States and we would have the definitive list of the 
overstays that the Chairman says might be 757,000. I don't see 
any heartburn about that growing number of people here in the 
United States--or there is a little, I hear a little, but I 
don't see it being led with that policy.
    So do you have a sense of what the price is to this society 
for the, I will say, criminal actions that take place here in 
the United States because of visa overstays?
    Mr. Heyman. So I would just like to say that, first and 
foremost, I think this Administration has an outstanding record 
of enforcement actions, having record removals for this year 
beyond any other preceding years. And I think that that speaks 
for itself.
    I do think that, if you look at overstays, you are going to 
have to make the distinction between those that are of national 
security or public safety concern versus those that are not. 
The proper----
    Mr. King. Does the law make that distinction?
    Mr. Heyman. Sorry?
    Mr. King. Does the law make that distinction?
    Mr. Heyman. The law does not make that distinction, but 
what makes that distinction, as is the case for all----
    Mr. King. Is prosecutorial discretion.
    Mr. Heyman. Yeah, is the ability for us to provide guidance 
given limited resources. There is no way we could do 
everything, and so we have to make distinctions on what is more 
important. We are going to take those criminal actions----
    Mr. King. Mr. Heyman, would you be more comfortable if 
Congress actually granted prosecutorial discretion and defined 
the difference between visa overstay people according to who is 
a risk and who isn't?
    Mr. Heyman. Well, I would leave it to Congress to do that, 
although there is a history of every Attorney General, I think, 
going back, you know, throughout history, of using that.
    Mr. King. That is a long discussion on prosecutorial 
discretion, but I think this Administration has taken it as far 
as any I have seen, at least with regard to immigration.
    And it seems to me this House, at least, voted to make it a 
crime for overstaying a visa some years ago. Do you recall 
that?
    Mr. Heyman. Yes.
    Mr. King. And do you think it might be a good idea for this 
Congress to come back and revisit that and perhaps draw that 
distinction so it would be easier for the prosecutorial 
discretion appliers to determine between a dangerous and a 
nondangerous visa overstayer? And perhaps we might be able to 
draft into law that if someone is a risk to society, we will 
make it a crime for them to overstay their visa, but if they 
are not, we just kind of let them go and be part of that 
757,000?
    Mr. Heyman. Well, one of the things that the Visa Waiver 
Program does which is, I think, unique to the Visa Waiver 
Program is it allows us to do this advance screening for the 
ESTA program. So we are actually doing----
    Mr. King. Is that biometric?
    Mr. Heyman. That is biographic, but you do collect the 
biometrics for ESTA.
    And one of the things we do prior to anybody giving travel 
authorization is we screen them against all the immigration 
databases to see if they violated the immigration laws, to see 
if there are overstay records, as well as all the terrorist and 
criminal----
    Mr. King. I thank you, Mr. Heyman.
    I would like to turn quickly to Mr. Stana and wouldn't want 
to let you leave this hearing without getting asked one last 
question before you go off into retirement.
    But do you have any knowledge of the price to society for 
those who have, one category, illegally crossed the border into 
the United States and the other half of that category being 
those visa overstayers? Do you have a sense in the loss in 
American life that would be the cumulative loss of life here in 
the United States due to people who have overstayed their visas 
and/or crossed the border illegally?
    Mr. Stana. I don't know that anyone has calculated the loss 
of economic opportunity or loss of life owing to the illegal 
alien population in the United States. As you know, there are 
thousands and thousands of illegal aliens, criminal aliens, who 
are in our Federal, State, and local prisons. They run up the 
cost to the American taxpayer in terms of per diems and other 
costs that way, costs to law enforcement.
    So those costs are there and they are documented, and I 
believe a report that we did for you not all that many months 
ago documented that. But, beyond that, the loss of life, the 
lost economic opportunity of a victim, I don't recall seeing 
any data like that.
    It is interesting when you make the distinction between 
overstays and other illegal aliens, because the overstays, you 
might argue, are subject to far less enforcement action. About 
3 percent of ICE enforcement resources are devoted to the 
overstay population. And this number we are throwing around of 
757,000, that is the top of the funnel. By the time it gets 
down, you are talking about 1,200 arrests a year. And, of 
those, it is hard to say how many are actually deported. There 
might be delays in deportation because they are in jails or 
they are awaiting deportation for another reason. But this 
757,000 winnows down to a little over 1,000 a year.
    Mr. King. Does 25,064 homicide arrests of criminal aliens 
ring a bell?
    Mr. Stana. Yes, it does. That was in the report.
    Mr. King. Thank you very much, Mr. Stana.
    I thank all the witnesses. I regret I am out of time, and I 
yield back the balance of whatever might be available.
    Mr. Gallegly. I thank the gentleman from Iowa.
    The gentlelady from California, Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I would like to thank the witnesses for being here today to 
help us better understand what our policies are.
    I would like to direct this question to Mr. Heyman. I think 
you would be the correct one. And maybe this was discussed 
before, maybe everyone else knows; I don't. How does a country 
indicate its interest? Do we initiate invitations to countries, 
or do countries apply, or how does this happen, for them to 
become a part of the program?
    Mr. Heyman. Thank you. No, it has not been discussed.
    Countries indicate usually to the State Department 
officially that they are interested in being designated a visa-
waiver country. They oftentimes will also approach the 
Department for technical discussions about what the 
requirements are, how does one become designated. And then they 
must meet the obligations set forth by Congress to be 
designated.
    Ms. Waters. I noticed that there are no African countries 
that are part of the acceptable countries that are in the 
program. Do you know if there have been any applications from 
any African countries?
    Mr. Heyman. No. And what I do know is that the countries 
have not met the requirements as set by Congress at this point, 
and that is probably why you haven't seen them.
    Ms. Waters. All African countries that have applied have 
not met the requirements?
    Mr. Heyman. Those who have requested, and I don't think we 
have had very many.
    Ms. Waters. That have requested?
    Mr. Heyman. Yes.
    Ms. Waters. Thank you very much.
    I will yield to the gentlelady from California. She has 
some more questions.
    Ms. Lofgren. Thank you to my colleague.
    I just wanted to make a quick comment on Mr. King's point, 
because I think there has been a lot of beating up of the 
Administration for its priorities. But there is an express 
requirement in 6 U.S. Code 202 that directs the Department of 
Homeland Security to establish, quote, ``national immigration 
enforcement priorities and policies.'' And, for years, the 
appropriations bills have directed that additional enforcement 
and funding for removal priorities, including through Secure 
Communities and 287(g) and the Criminal Alien Program, be 
directed toward removal of criminal aliens.
    So I just thought it was worth getting that on the record. 
And I thank the gentlelady for yielding. And we yield back our 
time.
    Mr. Gallegly. Without objection, that will be added to the 
record.
    And I would like to thank all of our witnesses today and, 
again, recognize Mr. Stana for his years of dedicated service. 
I know I have had the honor of participating in many hearings 
where he has testified.
    And I want to say, for myself and I am sure the Committee, 
how much we appreciate your public service and wish you well in 
your retirement years. Lots of blue skies and green lights to 
you.
    Mr. Stana. Thank you, Mr. Chairman. It has been a privilege 
to work for GAO and for the Committee.
    Mr. Gallegly. Thank you so much.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as possible so that the answers can be made 
a part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    And, with that, the Subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 3:02 p.m. the Subcommittee was adjourned.]









                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Response to Post-Hearing Questions from David F. Heyman, Assistant 
       Secretary for Policy, U.S. Department of Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
